The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Irving A. Williamson
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                  WASHINGTON, DC 20436




October 19, 2010                                                    OIG-HH-028


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final report Audit of
Perimeter Network Security, OIG-AR-11-01. In finalizing the report, we analyzed
management’s comments on our draft report and have included those comments in their
entirety in Appendix A.

This report contains two recommendations for corrective action. The Commission has
already implemented these recommended changes. As a result, we consider that final action
has been completed for all recommendations in this report.

Thank you for the courtesies extended to my staff during this audit, and for quickly
addressing our recommendations.

Sincerely,



Philip M. Heneghan
Inspector General
                                U.S. International Trade Commission
                                             Audit Report


                                                Table of Contents
Results of Audit ............................................................................................. 1

Area for Improvement.................................................................................. 2
   Web servers should use current security protocols and a minimum 112-bit cipher key
   strength............................................................................................................................ 2

      Recommendation 1: That the Commission discontinue use of SSLv2 (Secure
      Socket Layer version 2). .............................................................................................. 4

      Recommendation 2: That the Commission require a minimum 112-bit key strength
      for its ciphers. ............................................................................................................. 4

Management Comments and Our Analysis ............................................... 4

Objective, Scope, and Methodology ............................................................ 5

Appendix A: Management Comments on Draft Report




OIG-AR-11-01                                                     -i-
                      U.S. International Trade Commission
                                   Audit Report


                                  Results of Audit
The objective of this audit was to determine: “Is ITCNet's perimeter defense effective?”

ITCNet’s perimeter defense is effective.

A penetration test is an attempt to breach a network and gain unauthorized access to its
resources. On July 28-29, 2010, we conducted a penetration test of ITCNet using public
information. Our Google search for information on ITCNet servers identified 22
potential targets. The IP (Internet Protocol) addresses of the identified servers indicated a
network range of 256 addresses where ITCNet hosts its servers. We used software to
discover listening service ports, and then we scanned the servers for known
vulnerabilities.

The USITC’s computer network, ITCNet, has over 500 systems, consisting of servers,
desktops, laptops, printers, phones, and network infrastructure devices. Every computer
is connected to the network with a unique IP (Internet Protocol) address. For example, a
desktop PC on ITCNet will have an address like 192.168.50.40. A typical Windows XP
PC can have more than 20 listening ports. Each port serves a function; for instance, an
Internet browser connects to port 80 to request web pages from a server, and email
servers use port 25 to transfer messages. It would be normal for a network of 500
systems to present 10,000 listening ports, all potential targets for attack.

The goal of perimeter defense is to minimize the number of exposed ports, known as the
“attack surface.” A network with no open ports is not a network: open ports are required
to communicate. Devices such as firewalls are configured to limit the number of ports
exposed to the Internet, and newer technologies such as Intrusion Detection and
Protection Systems (IDPS) can provide additional protection.

Several effective characteristics of ITCNet’s perimeter defense include the following:

      ITCNet’s firewalls effectively limit the exposure of internal systems to the
       Internet. Inside ITCNet, 10,000 or more service ports might be actively listening
       and responding to requests. From the Internet, only 51 ports were discovered in
       our scan of the ITC network.
      Not all of these 51 ports were real ITCNet services, after communicating with
       certain ports; we lost all communications with ITCNet. This indicated that these
       ports were intentional decoys presented by the IDPS to identify attackers.
      ITCNet uses IDPS. This software quickly detected our scans and blocked further
       scanning attempts.




OIG-AR-11-01                                -1-
                     U.S. International Trade Commission
                                  Audit Report


      The listening services we identified all seemed to be functions necessary for the
       USITC to conduct business. We did not find any instances of services that should
       not have been exposed to the Internet.
      ITCNet’s remote access services require two-factor authentication. Without
       knowledge of a user name, password, PIN, and RSA token (with a one-time code
       that changes every sixty seconds), it is not possible to login to ITCNet from the
       Internet.
      DNS zone transfers are not allowed. The Commission is following a best practice
       of not publishing this information. If allowed, this would effectively provide a
       potential hacker with an official map of ITC’s network, much as a phone book
       would tell an outsider about every employee and their phone number. In the
       effort to secure a network, the less technical information published, the better.

In summary, ITCNet’s perimeter defense effectively prevented our intrusion attempts.

An effective perimeter defense is a significant component of a complete network security
program. An attacker can exploit a network in a number of ways. In general, she can
attack the network perimeter as we did, or she can bypass the perimeter by tricking a user
into letting her in. Means of accomplishing this could be as simple as having a user open
a malicious email or visit an infected website, or by leaving an infected USB drive to be
found by an employee near the front door of the building. While ITCNet’s current
perimeter defense is effective, continuous attention and improvement are required to
ensure that it remains effective in the future.

Our penetration testing did reveal a potential area for improvement: Commission web
servers should use current security protocols and a minimum 112-bit cipher key strength.
This potential area for improvement is detailed below.




                             Area for Improvement

                 Web servers should use current security protocols
                   and a minimum 112-bit cipher key strength.


We identified eight servers used by the Commission to publish information on the web.
Of these eight servers, we identified four that provide sensitive information and use
encryption. Encryption involves many components; two that are configured on our
servers are the security protocol and the length of the cipher key. One server uses current




OIG-AR-11-01                               -2-
                      U.S. International Trade Commission
                                  Audit Report

security protocols and 112-bit cipher key strength. The other three use older protocols
and allow weaker 40- and 56-bit encryption.

Why Are Protocols Important?

Secure Sockets Layer (SSL) and Transport Layer Security (TLS) protocols are used to
secure network communications. These protocols are designed to encrypt sensitive
information, such as health, financial, or confidential business data. When a user
accesses a website to transmit or receive sensitive information, the website should be
configured to communicate in a secure, encrypted manner. SSL version 2 was the
original method used to secure this network traffic. This protocol contains security flaws,
and was superseded by SSL v3 in 1996. TLS was introduced in 1999 as an upgrade to
SSL.

Three USITC websites allow use of the outdated SSLv2 protocol.

Why are Cipher Strings Important?

The strength of encryption can be described by the number of bits in the cipher key. A
1-bit key is analogous to a coin: just as a coin can only be heads or tails, a bit is either 0
or 1. A 1-bit key would only require two tries to get it right. A 2-bit key would have 4
possibilities: 00, 01, 10, and 11. A 3-bit key would present 8 possibilities: 000, 001, 010,
011, 100, 101, 110, and 111. Other cipher key strengths:

   x   40-bit: 1,099,511,627,776 possibilities
   x   56-bit: 72,057,594,037,927,936 possibilities
   x   112-bit: 5,192,296,858,534,827,628,530,496,329,220,100 possibilities

Today’s computing power makes it feasible for individuals to crack weaker encryption.
Commodity hardware available today for $400 can test 1.8 billion passwords per second.
This hardware could crack a 40-bit cipher key, containing over 1 trillion combinations, in
10 minutes or less. More sophisticated and better funded hacking efforts would employ
much higher performance systems, greatly reducing the time required to break
encryption. Requiring web servers to deploy a minimum 112-bit cipher key strength
would provide a high degree of protection for all sensitive Commission data.

Maximum time required to crack selected ciphers using inexpensive commodity
hardware:

   x   40-bit: 10 minutes
   x   56-bit: 1.27 years
   x   112-bit: 91,470,362,945,607,600 years

Three USITC websites allow the use of Low strength (40-bit) or Medium strength (56-
bit) ciphers, placing the traffic at risk of being intercepted and decrypted.


OIG-AR-11-01                                 -3-
                     U.S. International Trade Commission
                                 Audit Report


Recommendation 1:

That the Commission discontinue use of SSLv2 (Secure Socket Layer version 2).

Recommendation 2:

That the Commission require a minimum 112-bit key strength for its ciphers.




              Management Comments and Our Analysis

On October 15, 2010, Chairman Deanna Tanner Okun provided management comments
to the draft audit report. The Chairman agreed that the Commission’s perimeter defense
is effective.

Based on the recommendations we made in our draft report, the Office of the CIO has
reconfigured its Internet-facing web servers to remove the SSL v2 protocol and require a
minimum 112-bit cipher key strength.




OIG-AR-11-01                              -4-
                     U.S. International Trade Commission
                                 Audit Report


                    Objective, Scope, and Methodology
Objective:
Is ITCNet's perimeter defense effective?

Scope:
This audit focused on performing a penetration test of all public, Internet-accessible
USITC services, including DNS, Web, and Email servers as well as any other
discoverable services on July 28-29, 2010. The scope was restricted to the use of only
two IP source addresses, involved only external probes of logical network security, and
was time restricted to only two days of attacks. This audit involved specific testing, and
is not to be interpreted as an audit of compliance. The following techniques were not
used in our testing, but would be used by motivated attackers that had little concern about
the health of ITCNet:

   x   Potentially destructive activities
   x   Denial of Service
   x   Social Engineering
   x   Spearphishing
   x   Malware-infected USB drives
   x   Distributed scans
   x   Wi-Fi scans
   x   Wardialing
   x   Spoofing
   x   Brute Force Attack
   x   Physical Security testing

Methodology:
We used publicly available information to discover USITC’s Internet-accessible assets.
The information gathered provided us with a map of the Commission’s Internet services,
which we used as a starting point for our discovery scans. We used NMap with multiple
source addresses and with delayed timing to perform discovery, Nessus 4.2.2 to perform
general vulnerability scanning, and Cenzic Hailstorm Pro 6.5 to perform website-specific
vulnerability scanning.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-11-01                                -5-
               U.S. International Trade Commission
                            Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-11-01
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
